                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al1040028             ..
                                                                                                   Page 1 of 1



                   We reviewed an allegation that an NSF-funded professor1 and his then graduate student2
          (now also a professor at another institution) failed to provide appropriate attribution to other
          researchers in work published3 over more than 20 years ago. It is also alleged that they continue in
          their failure to provide attribution to the sources. The allegedsoufces4 predate the first alleged act by
          20-40 years. Our review of the literature showed that the professor and student provided appropriate
          attribution to either the alleged sources directly or to comprehensive review articles encompassing
          the alleged sources as well as numerous other sources. These reviews articles and a U.S. patentS
          provide substantive evidence that the professor's and student's work is a novel extension of the work
          of numerous predecessors in the field. Therefore, there is insufficient evidence to support an
          allegation of failure to provide appropriate attribution (i.e., plagiarism).

                    Accordingly, this case is closed.




NSF OlG Form 2 (11/02)
